               Improvements Are Needed in the Timeliness
                 and Accuracy of Offers in Compromise
                    Processed by Field Offer Groups

                                  December 2004

                       Reference Number: 2005-30-013




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  December 2, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                       Gordon C. Milbourn III
                                  Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Improvements Are Needed in the Timeliness
                                   and Accuracy of Offers in Compromise Processed by Field Offer
                                   Groups (Audit # 200330021)


      This report presents the results of our review of Offers in Compromise (OIC) processed
      by Internal Revenue Service (IRS) field offer groups. The overall objective of this
      review was to determine whether the field offer groups are meeting the IRS OIC
      program objectives by processing offers accurately and timely.
      In summary, the IRS’ goal is to complete an OIC evaluation within 6 months
      (approximately 180 days) from the date the offer was received by the IRS. The offer
      inventory decreased approximately 45 percent from Fiscal Year (FY) 2002 to April 2004,
      and the overall percentage of offers processed within 180 days increased from 38 to
      60 percent. While the IRS made progress in processing more offers within its goal of
      180 days and reduced the backlog of offers in process at both the Centralized Offer in
      Compromise (COIC)1 sites and field offer groups, the time in which offers are processed
      at the field offer groups has remained relatively unchanged. Approximately 80 percent
      of the offers closed by the field offer groups were over the 180-day goal during FY 2002,
      compared with approximately 78 percent during the first 7 months of FY 2004.
      Our review of a sample of 100 closed offers (accepted and rejected) showed that
      appropriate decisions were not made in the final dispositions of 12 offers. We
      determined that improvement is needed in the accuracy of the financial analyses to



      1
       For more information on the COIC program, see the Treasury Inspector General for Tax Administration report
      entitled, Continued Progress Is Needed to Improve the Centralized Offer in Compromise Program (Reference
      Number 2003-30-182, dated September 2003).
                                                        2

ensure accurate and consistent conclusions will be drawn. However, our review of a
sample of 50 returned offers found that decisions to return offers complied with policy.
We recommended the Director, Payment Compliance, Small Business/Self-Employed
(SB/SE) Division, ensure the OIC Manager’s Supplemental Resource Guide to the
Internal Revenue Manual (IRM) is fully developed and provided to managers in the OIC
program, and clarify IRM guidance for the timeliness of follow-up actions when
taxpayers timely respond to an information request or when the next case action does
not involve a missed taxpayer deadline. We also recommended the Director consider
requiring the use of a standardized tool, such as Decision Point,2 or other analysis tools
in the offer evaluation process and evaluate alternative case file documentation
techniques for organizing the supporting documentation and calculations. Finally, we
recommended the Director identify and provide additional training on financial analysis
techniques used in support of the offer determinations.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations and has either implemented them or is in the process of
implementing them. The OIC Manager’s Supplemental Resource Guide to the IRM has
been completed and is in the IRS’ IRM clearance process. The IRM guidelines for
timely OIC case actions have been developed and will be issued after discussion with
the National Treasury Employees Union (NTEU).3
The SB/SE Division is analyzing the Decision Point program and upgrading it to include
applications for business-related financial statements. Once this is completed, the IRS
intends to require the program’s use on OICs evaluated by field offer groups. The
implementation of Decision Point should help to reduce errors involving miscalculations
and serve as a helpful guide to OIC specialists in analyzing the financial condition of
businesses.
In this year’s operational review, the SB/SE Division will include an objective to review
current methods of case file organization. Based on the results of this review, it will
develop IRM direction to standardize best practices. The SB/SE Division is also
developing financial analysis training for revenue officers and has scheduled the training
for delivery in FY 2005. Based upon funding availability, offer specialists will be
included in this training. Management’s complete response to the draft report is
included as Appendix VIII.
Copies of this report are also being sent to IRS officials affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.

2
  Decision Point is a Microsoft Excel® spreadsheet application developed by the IRS to guide IRS employees
through the financial evaluation of offers.
3
  The NTEU represents IRS bargaining unit employees.
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups




                                                Table of Contents


Background ............................................................................................... Page 1
Offers Were Returned to Taxpayers According to Procedures ................. Page 4
Offers Were Not Timely Worked in the Field Offer Groups. ...................... Page 5
         Recommendations 1 and 2: ...........................................................Page 11

Offer Specialists Did Not Always Properly Analyze Financial
Information When Deciding to Accept or Reject Offers ............................. Page 12
         Recommendations 3 through 5:.....................................................Page 17

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Outcome Measures............................................................ Page 22
Appendix V – Selected Timeliness Information for Offer Processing ........ Page 23
Appendix VI – Analysis of Offer Processing Time in Sample Cases ......... Page 26
Appendix VII – Financial Analysis Errors Identified in Sample Cases ....... Page 29
Appendix VIII – Management’s Response to the Draft Report .................. Page 32
             Improvements Are Needed in the Timeliness and Accuracy of
               Offers in Compromise Processed by Field Offer Groups

                               The Internal Revenue Service (IRS) is responsible for
Background
                               collecting taxes when taxpayers file tax returns but do not
                               fully pay the tax liabilities. The IRS has the authority to
                               settle or compromise Federal tax liabilities by accepting less
                               than full payment under certain circumstances. This is
                               accomplished through an Offer in Compromise (OIC)
                               (Form 656). The OIC is an agreement between a taxpayer
                               and the Federal Government that settles a tax liability for
                               payment of less than the full amount owed.
                               The IRS is authorized to compromise a liability on any one
                               of three grounds:
                                   •   Doubt as to Collectibility (DATC), where the
                                       taxpayer’s assets and income are less than the full
                                       amount of the liability.
                                   •   Effective Tax Administration (ETA), where
                                       although collection in full could be achieved,
                                       collection of the full liability would cause the
                                       taxpayer economic hardship.
                                   •   Doubt as to Liability, where there is a genuine
                                       dispute as to the existence or amount of the correct
                                       tax liability under the law.
                               Taxpayers initiate the OIC process by submitting a
                               Form 656. For offers filed on the grounds of DATC or
                               ETA, the IRS requires the taxpayer to also complete a
                               financial statement1 and provide supporting documents, such
                               as wage and earning statements, to verify information
                               reported on the financial statement.
                               The IRS’ objectives for the OIC program are to:
                                   •   Effect collection of what could reasonably be
                                       collected at the earliest time possible and at the least
                                       cost to the Federal Government.



                               1
                                 The financial statement is also known as the Collection Information
                               Statement for Wage Earners and Self-Employed Individuals
                               (Form 433-A) and the Collection Information Statement for Businesses
                               (Form 433-B). The Collection Information Statement (CIS) includes a
                               monthly income and expense analysis as well as a listing of assets and
                               liabilities.
                                                                                              Page 1
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                        •    Achieve a resolution that is in the best interest of
                             both the taxpayer and the Federal Government.
                        •    Collect funds which may not be collectible through
                             any other means.
                        •    Give taxpayers a fresh start to enable them to
                             voluntarily comply with the tax laws.
                  Concerns relating to the administration of the OIC program
                  have existed for some time. The Fiscal Year (FY) 1997
                  Taxpayer Advocate’s Annual Report to Congress2
                  highlighted the OIC program as 1 of the 20 most serious
                  problems facing taxpayers. The Report stated that tax
                  practitioners ranked “Offer in Compromise Issues” as the
                  fourth most serious problem facing taxpayers and IRS
                  management ranked “Delays in OIC Processing” as the
                  fifteenth most serious problem. This concern still exists. In
                  the National Taxpayer Advocate’s FY 2003 Annual Report
                  to Congress,3 the Taxpayer Advocate ranked the OIC
                  program as the seventh most serious problem encountered
                  by taxpayers. In addition, tax practitioners have expressed
                  concerns that the IRS unnecessarily returns offers to
                  taxpayers, rather than working the offers.
                  From FYs 1998 through 2001, the number of offers received
                  outpaced the number of offers closed by the IRS. This
                  resulted in substantial growth in the number of offers to be
                  worked by the IRS in its ending inventory (see Figure 1).
                  The age of offers in inventory, as well as the age of the
                  offers at disposition, also grew. For example, the ending
                  inventory of offers over 12 months old increased from
                  approximately 6 percent at the end of FY 1998 to almost
                  19 percent by the end of FY 2001. Dispositions taking
                  longer than 12 months also increased from approximately
                  7 to 25 percent.




                  2
                      IRS Publication 2104 (Rev. 1-98).
                  3
                      IRS Publication 2104 (Rev. 12-2003).
                                                                              Page 2
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                      Figure 1: Change in Offer Inventories for FYs 1998 Through 2001

                                         135,000

                                         120,000

                                         105,000




                       # Offers
                                             90,000

                                             75,000

                                             60,000

                                             45,000

                                             30,000
                                                       1998     1999        2000      2001
                                  Dispositions        99,154    71,393     83,208    113,209
                                  Receipts            104,942   95,998     108,113   120,684
                                  Ending inventory    37,941    62,551     87,456    94,931
                                                                   Fiscal Year
                  Source: Treasury Inspector General for Tax Administration (TIGTA)
                  analysis of Collection Reports 5000-108 (Monthly Report of Offer in
                  Compromise Activity).

                  The IRS initiated the Centralized Offer in Compromise
                  (COIC) program in August 2001. The concept was to
                  control, gather required information about, and evaluate
                  offers at two centralized sites.4 More complex offers
                  (e.g., business and self-employed taxpayers) are forwarded
                  to field offer groups where experienced revenue officers,
                  known as offer specialists, conduct the offer evaluations.
                  By reducing the number of offers worked by the offer
                  specialists, the IRS expected that offers could be worked
                  quicker.
                  We conducted our review at the Office of Payment
                  Compliance of the Small Business/Self-Employed (SB/SE)
                  Division in New Carrollton, Maryland, during the period
                  June 2003 through April 2004. The audit was conducted in
                  accordance with Government Auditing Standards. Detailed
                  information on our audit objective, scope, and methodology
                  is presented in Appendix I. Major contributors to the report
                  are listed in Appendix II.




                  4
                    For more information on the COIC program, see TIGTA report
                  entitled, Continued Progress Is Needed to Improve the Centralized Offer
                  in Compromise Program (Reference Number 2003-30-182, dated
                  September 2003).
                                                                                        Page 3
                Improvements Are Needed in the Timeliness and Accuracy of
                  Offers in Compromise Processed by Field Offer Groups

                                  After offers are determined to be processable,5 they may still
Offers Were Returned to
                                  be returned to taxpayers for various reasons, including:
Taxpayers According to
Procedures                            •    The taxpayer fails to remain in compliance with the
                                           filing of required tax returns while the offer is under
                                           evaluation.
                                      •    The taxpayer fails to make required estimated tax
                                           payments or Federal tax deposits while the offer is
                                           under evaluation.
                                      •    The taxpayer fails to fulfill a request for information6
                                           necessary to complete a full evaluation.
                                      •    The IRS determines that the offer was filed solely to
                                           delay collection actions.7
                                  We reviewed a judgmental sample of 50 of the
                                  12,844 processable offers returned to taxpayers between
                                  October 1, 2002, and June 30, 2003. We determined the
                                  field offer groups generally followed IRS procedures when
                                  returning offers and cases generally contained evidence that
                                  an appropriate official approved the return of the offers.
                                  The delays in offer processing discussed later in this report
                                  may have contributed to a taxpayer’s nonresponse to
                                  information requests in a few instances; however, overall,
                                  we determined the requested information was necessary for
                                  the offer evaluation to continue. Figure 2 shows the various
                                  reasons for the return of the offers in our sample.




                                  5
                                    The preconditions a taxpayer must meet, as of November 1, 2003,
                                  include the taxpayer cannot be in bankruptcy, has filed all required tax
                                  returns, has used the most current version of Form 656, and has
                                  submitted the $150 application fee or Income Certification for Offer in
                                  Compromise Application Fee (Form 656-A).
                                  6
                                    Additional information requested may include bank statements,
                                  income verification, home mortgage information, a completed CIS, etc.
                                  7
                                    “Solely to delay collection” may include the resubmission of an offer
                                  after a prior offer has been returned or rejected and the new offer is
                                  essentially the same as the prior returned or rejected offer.
                                                                                                   Page 4
               Improvements Are Needed in the Timeliness and Accuracy of
                 Offers in Compromise Processed by Field Offer Groups

                                               Figure 2: Reasons Offers Were Returned

                                            Reason for Return                    Number of Cases
                                  Filing compliance                                        7
                                  Tax payment or deposit compliance                       15
                                  Requested information not provided                      21
                                  Solely to delay collection action                        2
                                  Other (e.g., bankruptcy filed while
                                                                                           5
                                  offer pending)
                                          Total                                           50
                                 Source: TIGTA review of 50 offers closed as returned to the taxpayers.

                                 The IRS’ goal is to complete an offer evaluation within
Offers Were Not Timely
                                 6 months (approximately 180 days) from the date the offer
Worked in the Field Offer
                                 was received by the IRS. The OIC program has made
Groups
                                 improvements in this area since implementation of the
                                 COIC sites. In addition, the number of offers pending in
                                 inventory has been reduced. Improvements include:
                                     •    The overall percentage of processable offers closed
                                          within 6 months increased from 38 percent in
                                          FY 2002 to almost 60 percent in the first 7 months
                                          of FY 2004.
                                     •    Ending inventory of all offers declined from
                                          approximately 95,000 at the end of FY 2001 to
                                          approximately 65,000 by the end of FY 2003. As of
                                          April 2004, there were approximately 53,000 offers
                                          in ending inventory.
                                     •    Ending inventory of offers being worked by the
                                          field offer groups also declined by approximately
                                          63 percent from the beginning of FY 2002 to the
                                          end of April 2004 (from approximately 81,000 to
                                          approximately 30,000).
                                 However, the length of time offers are in process when
                                 worked by the field offer groups continues to greatly exceed
                                 the IRS goal of closing cases within 6 months of receipt.
                                 Our analysis of the Automated Offer in Compromise



                                                                                                 Page 5
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  (AOIC) system8 for offers closed by the field offer groups
                  showed that the average length of time for closing9
                  processable offers was approximately:
                        •    337 days for FY 2002.
                        •    328 days for FY 2003.
                        •    330 days for FY 2004 through April 2004.
                  Figure 3 also shows the IRS field offer groups have
                  generally not been meeting their goal of closing cases within
                  180 days. The percentage of offers closed by field offer
                  groups within 6 months was only 20 percent in FY 2002,
                  25 percent in FY 2003, and 22 percent in FY 2004 (through
                  April 30, 2004). See Appendix V for additional information
                  on the timeliness of offer processing.
                        Figure 3: Age of Case Dispositions by Field Offer Groups

                       100%
                                     20%           25%           22%                0-6
                                                                                    Months
                         80%

                         60%         44%
                                                   43%           46%                6 -12
                                                                                    Months
                         40%
                                                                                    Over 12
                         20%         36%           32%           32%                Months

                            0%
                                 FY 2002       FY 2003      FY 2004*

                      * FY 2004 Through April 30, 2004

                  Source: TIGTA analysis of Collection Reports 5000-108 (Monthly
                  Report of Offer in Compromise Activity).

                  To further evaluate the process used by field offer groups,
                  we reviewed judgmental samples of 150 offers closed
                  between October 1, 2002, and June 30, 2003 (first 9 months
                  of FY 2003). The samples included 50 of the 10,000 offers

                  8
                    The AOIC system is a centralized database used to control and track
                  status and activities in offer cases. Our analysis included offers closed
                  between October 1, 2001, and April 30, 2004.
                  9
                    We measured the average length of time to close an offer as the period
                  of time from input to the AOIC system to the Area Office disposition
                  date (i.e., the issuance of the disposition letter). The SB/SE Division
                  Compliance Field function is geographically organized into 15 Area
                  Offices serving taxpayers nationwide and 1 Area Office serving
                  international taxpayers.
                                                                                   Page 6
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  accepted by the IRS, 50 of 5,369 offers rejected by the IRS
                  (the taxpayers did not exercise appeal rights), and 50 of
                  12,844 processable offers returned to taxpayers.
                  We determined the 150 offers were not timely processed.
                  The IRS letter informing the taxpayer of the disposition of
                  the offer evaluation was issued within 6 months of the offer
                  receipt in only 24 (16 percent) of the 150 offers reviewed.
                  We determined that, on average, these 150 offers took
                  approximately 398 days from IRS receipt to issuance of the
                  disposition letter and averaged approximately 417 days from
                  IRS receipt to closure on the AOIC system. See
                  Appendix VI for the average timeline of case processing
                  steps.
                  When an offer evaluation is not timely completed, both the
                  taxpayer and the Federal Government are adversely
                  affected. Taxpayers and their representatives have an
                  expectation that offer conclusions will be reached in a
                  reasonable amount of time. The Federal Government’s
                  interest is affected by delays in collection of the accepted
                  offer amount or attempted collection of the tax liabilities for
                  nonaccepted offers through the regular collection program.
                  Delays occurred in the 150 offers reviewed because the
                  backlog of offers delayed the assignment of offer cases to
                  offer specialists and some offers had to be reassigned to
                  other offer specialists. In addition, IRS guidance did not
                  clearly communicate expectations for timely offer actions
                  for employees or managers.
                  Some offers were not promptly assigned; others had to
                  be reassigned
                  An offer needs to be promptly assigned to an offer specialist
                  to help ensure the timely completion of the offer’s
                  evaluation. However, a backlog of offers in the field offer
                  groups resulted in the delayed assignment of cases in
                  55 (37 percent) of the 150 offers reviewed. In these offer
                  cases, delays of 45 days or more existed when assigning the
                  offer to either an employee for preliminary actions10 or an


                  10
                    These include evaluating the cases for processability, researching
                  internal sources, evaluating documentation provided for completeness,
                  etc. The COIC sites now conduct most of these preliminary actions.
                                                                                 Page 7
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  offer specialist. These delays averaged approximately
                  148 days on the 55 offer cases and ranged from 48 to
                  394 days. These delays increased the average processing
                  time for the 150 offers in our samples by approximately
                  54 days.
                  We also identified delays in the transfer of some offers from
                  one offer specialist to another. Transfer delays occurred
                  during periods of transition when offer specialists were
                  returned to the general field collection program or because
                  of other administrative actions such as promotion or
                  retirement. The following events illustrate the changes that
                  have occurred in recent years:
                      •   The number of offer specialists dedicated to the OIC
                          program was reduced from 1,078 in April 2001 to
                          452 in April 2004.
                      •   Revenue officers were temporarily assigned to offer
                          specialist positions to assist with the backlog of
                          offers, and later, the offer specialists were reassigned
                          to the general field collection program because the
                          temporary assignments ended.
                      •   Some revenue officers were returned to the general
                          field collection program because some of the OIC
                          workload shifted to the COIC sites.
                      •   The number of field offer groups decreased from
                          approximately 62 during FY 2003 to 52 during
                          FY 2004.
                  In 19 (13 percent) of the 150 offers, there was at least
                  1 period of 45 days or more associated with transfer of the
                  offer to another offer specialist. The delays averaged
                  approximately 125 days on the 19 offer cases and ranged
                  from 45 to 399 days. These delays increased the average
                  processing time for the 150 offers in our samples by
                  approximately 16 days.
                  IRS guidance did not clearly communicate expectations
                  for timely case actions
                  In 68 (45 percent) of the 150 offers, there was at least
                  1 period of inactivity of 45 days or more after assignment to
                  offer specialists. These delays occurred between the initial
                  assignment and initial analysis of the offer, when reviewing
                                                                           Page 8
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  the information provided from the taxpayer, or in
                  calculating the reasonable collection potential (RCP).11 The
                  delays in the 68 offers averaged approximately 145 days and
                  ranged from 45 to 666 days. These delays increased the
                  average processing time for the 150 offers in our samples by
                  approximately 66 days.
                  At the time of our review, IRS general guidance required
                  that offer specialists make first contact with the taxpayer
                  within 45 days of assignment. In addition, if a taxpayer did
                  not provide information by a given deadline, the offer
                  specialist was to follow up with the taxpayer within 15 days
                  of the missed deadline. The procedures did not identify a
                  time period for follow-up when the taxpayer submitted a
                  timely response or when the next case action did not involve
                  waiting for taxpayer correspondence.12 In addition, the IRS
                  manager guidance did not contain a methodology for the
                  periodic review of offers to provide timely and constructive
                  feedback to the offer specialists for promptly resolving the
                  offer evaluations.
                  Two types of reviews that can assist managers in ensuring
                  offers progress timely include:
                       •   Overage offer reviews - the review of offers
                           identified based on the length of time the offers are
                           in process.
                       •   Inactivity reviews - the review of offers identified
                           based on no documented actions over an extended
                           period of time.
                  Our discussions with 5 group managers from 2 of the
                  16 Area Offices found differences in usage of these reviews.
                  In the overage reviews, there was a difference in what is
                  considered overage and the basis of inactivity measurement.
                  For example:



                  11
                     The RCP is the amount the IRS determines could be legally collected
                  from the taxpayer.
                  12
                     New IRS procedures for the OIC program were issued on
                  May 15, 2004, but they do not identify a time period for follow-up when
                  the taxpayer submits a timely response or when the next case action
                  does not involve a missed taxpayer deadline.
                                                                                 Page 9
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                      •   While 1 group manager indicated he or she
                          considered as overage those offers that are over
                          300 days from receipt, another considered offers to
                          be overage when they are over 1 year from the date
                          of the processability determination. In either case,
                          these expectations exceed the IRS goal of processing
                          offers within 180 days.
                      •   One group manager indicated use of a 45-day period
                          for identifying offers with inactivity, while other
                          group managers indicated use of a 75-day period.
                          While the use of 45 days in identifying offers for
                          these reviews corresponds with the time period for
                          initial case action, the use of 75 days to identify
                          offers would not adequately promote timely case
                          actions.
                  We could not readily evaluate the group manager review
                  process in our samples of offers because documentation of
                  reviews was not always recorded or was recorded in several
                  different files that we did not obtain.
                  Headquarters office management has taken positive
                  actions to address the timeliness issues
                  Our reviews of OIC headquarters office program reviews
                  indicate that IRS program management has identified some
                  of the same issues surrounding the timeliness of offers
                  processed in the field offer groups. Our discussions with
                  OIC program management indicate that they have initiated
                  actions to improve the OIC program. These include:
                      •   National program management oversight in the
                          monitoring of the unassigned inventories.
                          Generally, offers worked in the Area Offices are
                          assigned to an Area Office based on the
                          geographical location of the taxpayer. However, as
                          the unassigned inventories become too high in an
                          Area Office, the IRS management team redirects
                          offers to other Area Offices with less unassigned
                          inventory. This would appear to help address delays
                          on the initial assignment identified in this review.
                      •   Changes for the involvement of COIC sites. These
                          include an expectation that the offers will be routed
                          to the field offer groups within 45 days of receipt.
                                                                        Page 10
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                          The COIC sites initially processed 93 of the
                          150 offer cases we reviewed. We determined these
                          offer cases were in process at a COIC site for an
                          average of approximately 86 days, ranging from 2 to
                          402 days.
                      •   Development of a supplemental managerial guide
                          specifically for offer managers. Our review of a
                          preliminary draft of the supplemental managerial
                          guide found that the proposed procedures addressed
                          timely assigning cases and outlined guidelines for
                          the overage and inactivity reviews.

                  Recommendations

                  The Director, Payment Compliance, SB/SE Division,
                  should:
                  1. Ensure the OIC Manager’s Supplemental Resource
                     Guide to the Internal Revenue Manual (IRM) is fully
                     developed and provided to managers in the OIC
                     program. This supplemental guidance should provide
                     clear expectations as to the form and substance of
                     reviews to ensure the timeliness of case processing, as
                     indicated in the draft we reviewed. This includes
                     specific information for managing unassigned offers and
                     defined expectations for the identification and review of
                     the offer inventory to reduce overage cases
                     (e.g., overage and inactivity reviews).
                  Management’s Response: SB/SE Division management
                  indicated that the Supplemental Resource Guide has been
                  completed and is currently in the IRM clearance process.
                  2. Clarify IRM guidance for the timeliness of follow-up
                     actions when taxpayers timely respond to an information
                     request or when the next case action does not involve a
                     missed taxpayer deadline.
                  Management’s Response: SB/SE Division management has
                  developed the IRM guidelines for timely OIC case actions.




                                                                      Page 11
               Improvements Are Needed in the Timeliness and Accuracy of
                 Offers in Compromise Processed by Field Offer Groups

                                 The guidelines will be issued after discussion with the
                                 National Treasury Employees Union (NTEU).13
                                 Our review of judgmental samples of 100 closed offers
Offer Specialists Did Not
                                 (50 accepted and 50 rejected) showed that offer specialists
Always Properly Analyze
                                 did not always make appropriate determinations and that
Financial Information When
                                 improvement is needed in the accuracy and documentation
Deciding to Accept or Reject
                                 of financial analyses conducted during offer evaluations.
Offers
                                 In the analysis of offers based on DATC, the offer specialist
                                 compares the amount the taxpayer offered with the amount
                                 the IRS determines could be legally collected from the
                                 taxpayer (i.e., the RCP). When offers are submitted based
                                 on ETA, the offer specialist determines if the RCP is greater
                                 than the amount owed before considering the taxpayer’s
                                 special circumstances.14
                                 The RCP is based on the taxpayer’s equity in assets and
                                 future income in excess of necessary living expenses. The
                                 IRS requires the taxpayer to complete a financial statement
                                 and provide documents to verify the amounts reported on
                                 the financial statements. The offer should be accepted when
                                 the offer amount reasonably reflects the RCP or the offer
                                 amount adequately reflects the offer specialist’s
                                 consideration of economic hardship15 when a special
                                 circumstance exists.
                                 We identified errors or a combination of errors in the
                                 financial analysis on 37 (37 percent) of the 100 cases.
                                 These errors involved:
                                      •   Monthly income in 21 instances. This included the
                                          calculation of income for wage earners (eight),
                                          business income of self-employed or business
                                          taxpayers (eight), and unemployed persons (five).
                                      •   Monthly expenses in 10 instances. This included
                                          calculation of the allowable tax expense (four),



                                 13
                                    The NTEU represents IRS bargaining unit employees.
                                 14
                                    A special circumstance may include advanced age or serious illness of
                                 the taxpayer.
                                 15
                                    Through analysis and negotiation, the offer specialist determines an
                                 amount believed to be necessary for the taxpayer to meet basic living
                                 expenses.
                                                                                                Page 12
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                           national standard or local housing standard16 (four),
                           or other allowable expenses (two).
                       •   The calculation of net equity in assets in six
                           instances. This included the valuation for equity in
                           investments (three) and the valuation of other assets
                           such as real estate/residence (three).
                  For a more detailed discussion on the errors we identified,
                  see Appendix VII.
                  The errors identified affected the outcome of 12 of the
                  50 accepted offers reviewed but did not change the final
                  decisions in any of the 50 rejected offers reviewed. For the
                  12 offers affected by these errors, our evaluation showed:
                       •   In 3 instances, the IRS accepted offers totaling
                           approximately $23,000 for outstanding liabilities of
                           approximately $62,000. The corrected RCPs
                           indicated the taxpayers could fully pay the
                           outstanding liabilities in all three cases. These offers
                           should have been rejected; the IRS could have
                           pursued collection of the entire $62,000 in
                           outstanding liabilities. A potential loss of revenue
                           exists totaling approximately $39,000.
                       •   In 8 instances, the IRS accepted offers totaling
                           approximately $71,000 for outstanding liabilities of
                           approximately $485,000. The corrected RCPs
                           indicated the offers could have been significantly
                           increased to a total of approximately $167,000. This
                           represents a potential loss of revenue totaling
                           $96,000.
                       •   In 1 instance, the IRS accepted an offer for
                           outstanding liabilities over $100,000. The corrected
                           RCP indicated the original amount offered by the
                           taxpayer could have been accepted. However, due
                           to errors in the offer specialist’s RCP calculation, a
                           higher offer amount was solicited and obtained. The


                  16
                     The IRS uses standards for three general categories of expenses.
                  National standards are used for food and clothing expenses. Local
                  standards are used for housing and utilities expenses and transportation
                  expenses (e.g., ownership and operating expense of automobiles).
                                                                                  Page 13
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                           offer accepted was almost $5,000 more than the
                           original offer amount.
                  Improper decisions were caused by insufficient
                  evaluation of data and inadvertent errors in calculations
                  Insufficient analysis of documentation provided and/or
                  inadvertent errors in the calculation occurred because offer
                  determinations involve indepth evaluation of the taxpayer’s
                  assets and ability to pay. This process is complex, requiring
                  offer specialists to pay close attention to detail and to make
                  numerous calculations.17 While managers reviewed and
                  approved the final decisions in the offers included in our
                  sample, the errors were not always identified. This is due to
                  the managers’ workloads and an emphasis on
                  reasonableness of the offer conclusion rather than a
                  recalculation of the offer.
                  Adequate documentation assists in maintaining the offer
                  specialist’s focus on the offer evaluation, assists in the
                  managerial review, and provides a basis for discussion of
                  the final determination with the taxpayer or the taxpayer’s
                  authorized representative. The offer case files for the
                  100 offers reviewed generally contained file separators with
                  tabs for organizing information, the calculation of the RCP,
                  a narrative called the case history, and a collection of
                  supporting documentation.
                  When the file separators were used, the supporting
                  documentation was maintained under a general category of
                  asset verification. In the offers reviewed, many of the
                  calculations and assumptions used could be verified with
                  supporting documentation; however, considerable effort was
                  sometimes required to find the information. Offer case files
                  did not contain any cross-references to link RCP items with
                  the calculations or supporting details.
                  The actual calculation of the RCP was done using a variety
                  of methods including narrative in the case history, proforma
                  handwritten worksheets, proforma electronic spreadsheets,
                  and older versions of Decision Point. Decision Point is a
                  Microsoft Excel® spreadsheet application developed by the


                  17
                    For the 100 offers in our review, our calculation of the RCP identified
                  approximately 836 RCP components with a determined value.
                                                                                  Page 14
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  IRS to guide employees through the financial evaluation of
                  offers. Decision Point uses information input by users to
                  perform an offer’s automated calculations necessary in
                  determining the RCP. This includes identification of
                  applicable standard amounts and other calculations such as
                  those involved in determining gross monthly income.
                  Figure 4 shows the methods used to document the RCP
                  calculation in the 100 offers reviewed and whether an error
                  in analysis was identified. While in 3 of the 100 cases
                  Decision Point (4/26/00 version) was used, this version did
                  not always automatically link to the applicable standards.
                  The use of a program such as the more recent versions of
                  Decision Point in the offer evaluation process could help to
                  reduce mathematical errors identified in our review.
                         Figure 4: Methods of Documenting RCP Calculation

                                                               Error Case
                                                         Total
                       RCP Calculation Format            Cases Yes No

                  Electronic Worksheets (other
                                                          58       21     37
                  than Decision Point)
                  Handwritten Worksheets                  37       14     23
                  Decision Point (4/26/00 Version)         3       1       2
                  Case History Narrative                   2       1       1
                     Totals                              100       37     63
                  Source: TIGTA review of 100 offers closed as accepted or rejected
                  between October 1, 2002, and June 30, 2003.

                  Training in financial analysis techniques can improve an
                  employee’s ability to know what to obtain from the taxpayer
                  and how to evaluate the information for use in the offer
                  calculation. Our discussions with management indicated the
                  offer specialists received only limited training in the last
                  fiscal year. This was due to funding issues and technical
                  issues experienced when attempting to provide remote
                  training, such as online, computer-based training. The
                  group managers indicated they hold group meetings in
                  which they provide local training topics; however, this type
                  of training was not consistently provided. Headquarters
                  officials are aware that training is needed and are attempting
                                                                               Page 15
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  to identify alternative methods for delivery of training, as
                  funds are not available to hold formal classroom training.
                  Additional guidance for calculation of gross monthly
                  income was provided
                  We identified errors in the offer specialists’ determinations
                  of monthly income in 21 of the 100 cases reviewed. The
                  inaccurate income determinations were significant
                  contributing factors in 9 of the 12 instances in which the
                  offer determination was adversely affected.
                  IRS procedures indicate that the income calculation is based
                  on an estimate from current earnings information (e.g., wage
                  statements for employed taxpayers or income statements for
                  business and self-employed taxpayers) or from an average
                  of the taxpayer’s earnings from the prior years when the
                  taxpayer is temporarily unemployed or employment is
                  sporadic.
                  Income errors occurred because offer specialists used
                  incorrect sources of information (e.g., income of an
                  unemployed person based on unemployment benefits) or
                  made inadvertent mathematical or other calculation errors,
                  such as not adjusting business or self-employed income for
                  asset depreciation expense. As we reported in our review of
                  the COIC program,18 guidance in the IRM did not
                  adequately cover many circumstances encountered in
                  evaluating the various types of earning statements. The IRS
                  revised the IRM procedures for financial analysis on
                  May 1, 2004. These procedures included additional details
                  for the calculation of income, which should help offer
                  specialists analyze financial information more consistently.




                  18
                     For more information on the COIC program, see TIGTA report
                  entitled, Continued Progress Is Needed to Improve the Centralized Offer
                  in Compromise Program (Reference Number 2003-30-182, dated
                  September 2003).
                                                                                Page 16
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                  Recommendations

                  The Director, Payment Compliance, SB/SE Division,
                  should:
                  3. Consider requiring the use of a standardized tool, such
                     as Decision Point, or analysis tools in the offer
                     evaluation process. This would help reduce errors
                     involving miscalculations.
                  Management’s Response: The Decision Point program is
                  currently being analyzed and upgraded to include
                  applications for business-related financial statements. Once
                  this is completed, the IRS intends to require the program’s
                  use on OICs evaluated by field offer groups. This program
                  should not only help in reducing errors involving
                  miscalculations but also serve as a helpful guide to OIC
                  specialists in analyzing the financial condition of
                  businesses.
                  4. Evaluate alternative case file documentation techniques
                     for organizing the supporting documentation and
                     calculations. This would assist with managerial review
                     of the cases so calculations could be more easily
                     reviewed for accuracy.
                  Management’s Response: The implementation of Decision
                  Point will assist in providing more consistency and quality
                  assurance in OIC calculations and reports. This year’s
                  operational review plans include an objective to review
                  current methods of case file organization, which will lead to
                  IRM direction to standardize best practices in this area.
                  5. Identify and provide additional training on financial
                     analysis techniques used in support of the offer
                     determinations. Based on our limited review, training
                     topics should include income determination issues.
                  Management’s Response: Financial analysis training for
                  revenue officers is currently being developed and scheduled
                  for delivery in FY 2005. Based upon funding availability,
                  offer specialists will be included in this training.




                                                                       Page 17
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the field offer groups are meeting
the Internal Revenue Service (IRS) Offer in Compromise (OIC) program objectives by
processing offers accurately and timely. To accomplish this objective, we:
I. Determined whether the offer determinations were appropriate and based on accurate and
   consistent financial analysis for offers closed during Fiscal Year 2003.
    A. Held discussions to determine procedures used in conducting offer evaluations with
       Small Business/Self-Employed (SB/SE) Division program analysts and local
       management from 2 of the 16 Area Offices.1 Our discussions with local management
       included two Territory Managers2 over the OIC program in both Area Offices selected
       and five group managers. We selected the Area Offices included in the discussions based
       on timeliness information. One Area Office was selected because the Automated Offer in
       Compromise (AOIC)3 system data indicated that offers were taking longer to close than
       in most other Area Offices; in the other Area Office, the offers were being closed in the
       least amount of time.
    B. Obtained a computer extract from the AOIC system of all OICs closed between
       October 1, 2002, and June 30, 2003. We chose this period because it represented current
       case closures and allowed time for any postprocessing actions (e.g., mail time for
       accepted offers sent to IRS campuses4 for monitoring of the terms of the offers). Our
       validation testing involved various analyses, including a comparison with selected
       information from the IRS Collection Reports 5000-108 (Monthly Report of Offer in
       Compromise Activity).
    C. Reviewed a judgmental sample of 50 of the 10,000 offers accepted by field offer groups
       between October 1, 2002, and June 30, 2003. This sample was identified from the data
       extract discussed in Step I.B. We selected a judgmental sample since we did not want to
       project the results.
        1) Obtained and evaluated the IRS case files to determine whether correct conclusions
           were reached and evaluated the accuracy of the financial analyses used to determine
           equity in assets and future income.

1
  The SB/SE Division Compliance Field function is geographically organized into 15 Area Offices serving taxpayers
nationwide and 1 Area Office serving international taxpayers.
2
  A Territory Manager is a second-level manager who oversees field groups within an Area Office.
3
  The AOIC system is a centralized database used to control and track status and activities in offer cases. For
Step I.A., our analysis included offers closed between October 1, 2001, and April 30, 2004.
4
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 18
               Improvements Are Needed in the Timeliness and Accuracy of
                 Offers in Compromise Processed by Field Offer Groups

       2) Determined whether offer determinations were properly reviewed and approved.
   D. Reviewed a judgmental sample of 50 of the 5,369 offers rejected (the taxpayers did not
      exercise appeal rights) by field offer groups between October 1, 2002, and
      June 30, 2003. This sample was identified from the data extract discussed in Step I.B.
      We selected a judgmental sample since we did not want to project the results.
       1) Obtained and evaluated IRS case files to determine whether correct conclusions were
          reached and evaluated the accuracy of the financial analyses used to determine equity
          in assets and future income .
       2) Determined whether offer determinations were properly reviewed and approved.
II. Determined whether the IRS field offer groups accurately and consistently followed IRS
    procedures when offers were returned.
   A. Reviewed a judgmental sample of 50 of the 12,844 processable offers returned to
      taxpayers by field offer groups between October 1, 2002, and June 30, 2003. This
      sample was identified from the data extract discussed in Step I.B. We selected a
      judgmental sample since we did not want to project the results.
   B. Obtained and evaluated the IRS files supporting the IRS’ return decisions to determine
      whether conclusions reached were correct, reviewed, and approved as required.
III. Determined whether the field offer groups timely arrived at ultimate conclusions about
     offers.
   A. Held discussions with SB/SE Division program analysts and local management from 2 of
      the 16 Area Offices to determine expectations for timely closing OIC evaluations.
   B. Evaluated the timeliness of actions on 150 offers (50 accepted, 50 rejected, and
      50 returned) processed by field offer groups between October 1, 2002, and June 30, 2003.
      For this test, we used the cases selected in Steps I.C., I.D., and II.A.
   C. Evaluated the amount of time required to process the 150 offers through the various
      stages and determined the reasons for delays in closing offers.
   D. Analyzed a data extract from the AOIC system database for offers closed or in process
      between October 1, 2001, and April 30, 2004, for the age of dispositions and the age of
      cases pending in inventory. We selected this period to provide insight on the historical
      trends as well as to obtain current data. Our validation testing included various analyses,
      including a comparison with selected information from the IRS Collection
      Reports 5000-108.




                                                                                          Page 19
               Improvements Are Needed in the Timeliness and Accuracy of
                 Offers in Compromise Processed by Field Offer Groups

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Amy Coleman, Audit Manager
Darryl Roth, Lead Auditor
Jeff Jones, Senior Auditor
Lynn Rudolph, Auditor




                                                                                       Page 20
              Improvements Are Needed in the Timeliness and Accuracy of
                Offers in Compromise Processed by Field Offer Groups

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 21
                     Improvements Are Needed in the Timeliness and Accuracy of
                       Offers in Compromise Processed by Field Offer Groups

                                                                                             Appendix IV


                                              Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
Increased Revenue – Potential; $135,000 for 3 taxpayers whose Offers in Compromise (OIC)
should have been rejected and the taxpayer accounts placed back into active collection status,
and for 8 taxpayers whose OICs should have been significantly increased. It may be likely that
some of the taxpayers will be reluctant to fully pay or increase the amount offered. However,
Internal Revenue Service (IRS) procedures indicate that, when the amount offered does not
reasonably reflect the reasonable collection potential (RCP),1 the offer should be rejected or
increased (see page 12).
Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 50 from the 10,000 OICs that were accepted by the field
offer groups between October 1, 2002, and June 30, 2003. We determined the amount of the
increased revenue based on the difference between the amount accepted and the outstanding
liabilities in three instances for which the RCP exceeded tax liabilities. In eight instances, we
calculated the increased revenue potential based on the difference between the amount accepted
and our calculation of the RCP.
Type and Value of Outcome Measure:
Taxpayer Rights and Entitlements – Potential; almost $5,000 for 1 taxpayer whose original offer
amount should have been accepted. The taxpayer’s original offer exceeded our calculation of the
RCP; however, due to an error in the offer specialist’s calculations, a higher offer amount was
solicited and obtained (see page 12).
Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 50 from the 10,000 OICs that were accepted by the field
offer groups between October 1, 2002, and June 30, 2003. We determined the amount of the
taxpayer entitlement based on the difference between the amount accepted and the amount of the
initial offer. In this instance, the initial offer amount exceeded our calculation of the RCP.




1
    The RCP is the amount the IRS determines could be legally collected from the taxpayer.


                                                                                                  Page 22
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups

                                                                                                Appendix V


                   Selected Timeliness Information for Offer Processing

In recent years, the Internal Revenue Service (IRS) has improved the timeliness with which
offers are processed and has reduced the level of offer inventories. These timeliness
improvements have occurred because many offers are now processed at the Centralized Offer in
Compromise (COIC) sites.1 During Fiscal Year (FY) 2004 (through April 2004), the COIC sites
processed approximately 93 percent of the processable2 offers within 180 days and accounted for
over 50 percent of the processable offer dispositions. See Figures 1 through 4 for additional
information.
Figure 1 shows the increase in OIC inventories from FYs 1998 through 2004 (as of
April 30, 2004). During August 2001, the IRS implemented the COIC program. During
FY 2002, dispositions exceeded the number of offer receipts and ending inventory had a sharp
decline. This trend in the reduction of ending inventory has continued through April 2004.3
While ending inventory has continued to decline with dispositions (approximately 77,800)
exceeding receipts (approximately 65,200), this information is not presented because it is not
comparable for graphic display.




1
  For more information on the COIC program, see Treasury Inspector General for Tax Administration (TIGTA)
report entitled, Continued Progress Is Needed to Improve the Centralized Offer in Compromise Program (Reference
Number 2003-30-182, dated September 2003).
2
  The preconditions a taxpayer must meet, as of November 1, 2003, include the taxpayer cannot be in bankruptcy,
has filed all required tax returns, has used the most current version of Offer in Compromise (Form 656), and has
submitted the $150 application fee or Income Certification for Offer in Compromise Application Fee (Form 656-A).
3
  FY 2004 data are not for a complete fiscal year.
                                                                                                       Page 23
                          Improvements Are Needed in the Timeliness and Accuracy of
                            Offers in Compromise Processed by Field Offer Groups

                             Figure 1: OIC Ending Inventories for FYs 1998 Through April 30, 2004

                  150,000
                  130,000
                  110,000
                      90,000
                      70,000
                      50,000
                      30,000
                                  FY 1998   FY 1999       FY 2000        FY 2001            FY 2002           FY 2003   FY 2004*

           Dispositions           99,154     71,393        83,208         113,209           143,102           136,822
           Receipts               104,942    95,998       108,113         120,684           115,313           127,769
           Ending inventory       37,941     62,551        87,456         94,931            66,045            65,327     52,524
  * - FY 2004 Through April 30, 2004

Source: TIGTA analysis of Collection Reports 5000-108 (Monthly Report of Offer in Compromise Activity).

Figure 2 shows that the percentages of offers closed within 6 months declined from FYs 1998
through 2001, as the ending inventories grew. The IRS data show that the percentage of offers
closed within 6 months is improving and returning to FY 1998 levels.
                             Figure 2: Age of Offer Disposition for FYs 1998 Through April 30, 2004

      100%
        90%                                                                                                              0-6
                                                         32.5%
        80%                                 37.9%                     38.0%                                              Months
                                   51.4%
        70%           60.5%                                                         56.5%         59.5%
                                                                                                                         6 -12
        60%
                                                                                                                         Months
        50%                                             42.9%         36.2%
        40%                                 44.9%                                                                        Over 12
        30%                        40.1%                                            27.7%                                Months
                                                                                                     25.1%
                      32.6%
        20%
                                                        24.6%         25.8%
        10%                                 17.2%                                   15.8%             15.4%
                      6.9%         8.5%
         0%
              FY 1998 FY 1999        FY 2000          FY 2001       FY 2002    FY 2003         FY 2004*
 * - FY 2004 T hrough April 30, 2004

Source: TIGTA analysis of Collection Reports 5000-108.

Figure 3 shows that, in FY 2002, the COIC sites accounted for approximately 29 percent of the
total processable dispositions; in FYs 2003 and 2004 (through April 2004), over 50 percent of
the processable dispositions were from the COIC sites.




                                                                                                                                   Page 24
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups

       Figure 3: Comparison of Processable Dispositions Between COIC Sites and Field Offer Groups


                           100%

                            80%

                            60%
                            40%

                            20%
                             0%
                                      FY 2002            FY 2003        FY 2004*

                     Field Groups     77,743             50,768          25,336
                     COIC Sites       32,451             55,644          28,129

 * - FY 2004 Through April 30, 2004

Source: TIGTA analysis of Collection Reports 5000-108.

The percentage of offers processed within the IRS goal of 180 days shows continued
improvement for the COIC sites. In FY 2002, approximately 82 percent of the processable
dispositions by COIC sites were processed within 180 days, compared with approximately
93 percent in FY 2004 (through April 2004).
                         Figure 4: Age of Processable Offer Dispositions at COIC sites


                            100%

                             80%

                             60%

                             40%

                             20%

                               0%
                                      FY 2002            FY 2003        FY 2004*

                  Over 12 Months         32                413            211
                  6-12 Months           5,952             7,831           1,774
                  0-6 Months           26,467             47,400         26,144

 * FY 2004 Through April 30, 2004

Source: TIGTA analysis of Collection Reports 5000-108.




                                                                                               Page 25
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups

                                                                                              Appendix VI


                    Analysis of Offer Processing Time in Sample Cases

We reviewed the timeliness of processing activities for 150 offers (50 accepted, 50 rejected, and
50 returned) closed by the Internal Revenue Service (IRS) field offer groups between
October 1, 2002, and June 30, 2003. Since August 2001, most new offers have been initially
processed by the Centralized Offer in Compromise (COIC) sites.1 When the COIC sites
determine an offer contains complex issues (e.g., for business and self-employed taxpayers), the
offer is transferred to a field offer group. In some instances, a COIC site may not have been
involved in the initial offer processing, such as when a taxpayer submitted an offer with active
field collection or when a field offer group had already begun the offer evaluation before the
COIC program was implemented.
In our analysis of offer processing time, we measured the length of time, in terms of the number
of days, from one processing activity to the next. Figure 1 shows that 93 of the 150 offers
reviewed were initially processed by COIC sites (“Through COIC”) and the other
57 offers were evaluated entirely by field offer groups (“Field Groups Only”). The analysis
shows that the offers processed initially by the COIC sites had been in process, on average,
approximately 104 days when received at field offer groups, compared with approximately
6 days for offers evaluated entirely by field offer groups. However, by the time the offer
evaluations were completed, offers processed completely by the field offer groups took
approximately 252 more days to process.
The time disparity between the offers partially processed through the COIC sites and the offers
processed entirely by field offer groups was a result of the backlogs and other delays in
processing. Figure 2 shows that the offers processed entirely by field offer groups were delayed
by approximately 197 more days than the offers partially processed through the COIC sites. This
included:
    •   Held for Assignment Delays: This includes periods of 45 days or more when assigning
        the case to either an employee for preliminary actions2 or to an offer specialist.
    •   Transfer-related Delays: This includes periods of 45 days or more associated with the
        transfer(s) of the offer to another offer specialist.
    •   Inactivity Delays: This includes periods of 45 days or more after assignment to offer
        specialists.


1
  For more information on the COIC program, see Treasury Inspector General for Tax Administration (TIGTA)
report entitled, Continued Progress Is Needed to Improve the Centralized Offer in Compromise Program (Reference
Number 2003-30-182, dated September 2003).
2
  These include evaluating the cases for processability, researching internal sources, evaluating documentation
provided for completeness, etc. The COIC sites now conduct most of these preliminary actions.
                                                                                                      Page 26
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups



                Figure 1: Listing of Cumulative Days to Evaluate Offers at Field Offer Groups
                                         Through COIC        Field Groups Only        Combined
                                           (93 Offers)           (57 Offers)         (150 Offers)
                                       Average Cumulative Average Cumulative Average Cumulative
            Processing Activity
                                        Days       Days      Days        Days      Days      Days
Receipt at the COIC Site                     3.1         3.1        0            0     1.9         1.9
COIC Site Actions                          64.0         67.1        0            0   39.7         41.6
Taxpayer Response - COIC Site Requests     22.3         89.4        0            0   13.8         55.4
                       3
Receipt at Area Office                     14.4        103.8      6.3          6.3   11.3         66.7
Receipt at Field Offer Group                 3.7       107.5      2.9          9.2     3.4        70.1
Preliminary Field Actions                    5.7       113.2     50.1         59.3   22.6         92.7
Assigned to Offer Specialist               31.3        144.5   109.8         169.1   61.2        153.9
Preliminary Review by Offer Specialist     32.9        177.4     59.3        228.4   43.0        196.9
Request for Additional Information           6.9       184.3     35.9        264.3   17.9        214.8
Taxpayer Response                          30.5        214.8     47.5        311.8   37.0        251.8
Full Analysis of Offer                     27.1        241.9     80.5        392.3   47.4        299.2
Preliminary Results to Taxpayer              4.7       246.6     29.0        421.3   13.9        313.1
Taxpayer Response                          15.8        262.4     25.9        447.2   19.6        332.7
Final Decision                             19.8        282.2     58.1        505.3   34.4        367.1
Manager Review                             11.2        293.4     18.6        523.9   14.0        381.1
Office of Chief Counsel or Independent
Administrative Review4                       8.0       301.4     18.0        541.9   11.8        392.9
Decision Letter to Taxpayer                      4.0        305.4         6.0      547.9        4.8        397.7
Closed on Automated Offer in
                                                15.7        321.1        24.8      572.7       19.1        416.8
Compromise (AOIC) system5
                   Total                       321.1                   572.7                  416.8
Source: TIGTA analysis of 150 offers closed as accepted, rejected, or returned.




3
  The Small Business/Self-Employed Division Compliance Field function is geographically organized into 15 Area
Offices serving taxpayers nationwide and 1 Area Office serving international taxpayers.
4
  The IRS Office of Chief Counsel reviews are conducted for offers recommended for acceptance when the total
liability is $50,000 or greater. Independent Administrative Reviews (IAR) are required for all offers recommended
for rejection. The IAR is conducted by an independent third party who is not in the chain of command of the
employees responsible for the rejection of the offer.
5
  The AOIC system is a centralized database used to control and track status and activities in offer cases.
                                                                                                         Page 27
                    Improvements Are Needed in the Timeliness and Accuracy of
                      Offers in Compromise Processed by Field Offer Groups

                    Figure 2: Processing Delays in Offers Processed in the Field Offer Groups

                               Through COIC               Field Groups Only                  Combined
                                (93 Offers)                   (57 Offers)                   (150 Offers)
                          Number Percentage          Number Percentage         Number of Percentage
                          of Offers of Total Average of Offers of Total Average Offers    of Total Average
Held for Assignment            19     20.4%     22.1        36     63.2%    106.6         55     36.7%       54.2
Transfer-related Delays         5      5.4%      3.9        14     24.6%      35.4        19     12.7%       15.9
Inactivity Delays              33     35.5%     34.7        35     61.4%    116.2         68     45.3%       65.7
Total Delays*                  48     51.6%     60.7        48     84.2%    258.1         96     64.0%      135.8
* Some offers had more than 1 type of delay; therefore, the number of offers does not total and the percentage of
total does not equal 100%.
 Source: TIGTA analysis of 150 offers closed as accepted, rejected, or returned.




                                                                                                           Page 28
                     Improvements Are Needed in the Timeliness and Accuracy of
                       Offers in Compromise Processed by Field Offer Groups

                                                                                                    Appendix VII


                       Financial Analysis Errors Identified in Sample Cases

We reviewed a judgmental sample of 100 offers (50 accepted and 50 rejected) closed by the
Internal Revenue Service (IRS) field offer groups between October 1, 2002, and June 30, 2003.
We identified financial analysis errors in 37 of the 100 cases reviewed. As some cases contained
multiple errors, we categorized the errors based on the significance to the reasonable collection
potential (RCP)1 calculation. The items with a higher impact on the calculation were considered
primary, with other errors being nonprimary. Figure 1 shows, by the various items in the RCP
calculation, the total number of offers containing an error for the item and distinguishes between
whether we considered the error primary or nonprimary in the RCP calculation.
                          Figure 1: Financial Analysis Errors Identified in Sample Cases

                      Item                Errors Observed         Primary Error        Nonprimary Error
         Income                                   21                     21                     0
         Expenses:
           National Standard                       4                     2                      2
           Housing and Utilities                  4                      2                      2
           Tax                                    12                     4                      8
           Transportation                          2                     1                      1
           Health Care                             2                     0                      2
           Child Care                             3                      0                      3
           Other Expenses                          1                      1                      0
           Total Expense Errors                   28                     10                     18
         Assets:
          Bank Accounts                           2                      0                      2
          Investments                             6                      3                      3
          Real Estate                             1                      1                      0
          Vehicles                                3                      0                      3
          Other Assets                            2                      1                      1
          Personal Assets                         1                      1                      0
          Total Asset Errors                      15                      6                     9
         Total Errors                             64                     37                     27
         Source: Treasury Inspector General for Tax Administration review of 100 offers closed as
         accepted or rejected.




1
    The RCP is the amount the IRS determines could be legally be collected from the taxpayer.
                                                                                                          Page 29
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups

Income:
We identified 21 errors involving incorrect calculation of income. For 13 of these errors, the
taxpayers were individual wage earners or unemployed persons; the remaining 8 errors involved
businesses or self-employed individuals. These errors involved instances when the offer
specialist:
    •   Considered wage statements to be semimonthly rather than biweekly, used individual pay
        period information which did not include bonus pay, or calculated monthly income based
        on a wage statement containing only bonus pay information which differed from regular
        pay (five instances).
    •   Calculated monthly earnings from wage or return information that reflected taxable
        income rather than total income, such as income that was reduced by 401(k) deductions
        or other tax-exempt earnings (three instances).
    •   Calculated monthly earnings for unemployed taxpayers based on a prior year’s earning
        information,2 information provided on the Collection Information Statement for Wage
        Earners and Self-Employed Individuals (Form 433-A) or Collection Information
        Statement for Businesses (Form 433-B) or unemployment benefits (three instances).
    •   Did not sufficiently probe to determine the period of current employment following a
        period of unemployment for use in analyzing a year-to-date earning statement or possible
        disability benefits (two instances).
    •   Used income from return information that was reduced by depreciation or other allowable
        deductions (three instances).
    •   Did not adequately evaluate or include business income of related businesses
        (three instances).
    •   Made an inadvertent math error in adding income information or overlooked bank deposit
        information (two instances).
Monthly Expenses:
We identified 28 errors in the calculation of monthly expenses in 18 cases. The errors in the
monthly expense calculations were the most significant errors identified in the financial analysis
for 10 of the 28 errors identified. For 18 of the 28 errors identified, the errors affected the RCP
calculation, but other errors in the financial analysis had a more significant impact on the RCP
calculation. These errors involved instances when the offer specialist:




2
 The offer specialist used the prior year return information to determine monthly income; however, the taxpayer
was unemployed during a portion of that year.
                                                                                                          Page 30
                  Improvements Are Needed in the Timeliness and Accuracy of
                    Offers in Compromise Processed by Field Offer Groups

    •   Calculated tax on a basis that was not consistent with the method for determining
        income,3 calculated tax based on Federal income tax only, did not sufficiently document
        the calculation to allow for us to determine why the error occurred, or made other
        inadvertent errors in the tax calculation (12 instances).
    •   Selected incorrect amounts from the national standard tables or did not accurately
        determine the national standard for taxpayers that shared living conditions
        (four instances).
    •   Allowed the amount of housing and utility expense as claimed, which was in excess of
        the standard where no special circumstances were identified; used a standard amount for
        an incorrect county of residence; or made other inadvertent errors in the amount of
        housing and utility expenses allowed (four instances).
    •   Did not fully evaluate information available to determine the proper amount of the
        expense or made inadvertent errors in the amount allowed for other monthly expenses,
        such as transportation, health care, or child care (eight instances).
Asset Valuation:

We identified 15 errors in the calculations of net realizable asset value in 12 offer cases. The
errors in asset calculation were the most significant errors identified in the financial analysis for
6 of the 15 errors identified. The other nine errors identified affected the RCP calculation, but
other errors in the financial analysis had a more significant impact on the RCP calculation. The
asset errors included instances when the offer specialist:
    •   Either did not adjust the assets’ market value for quick sale or did not accurately reduce
        the assets’ value for applicable reductions such as outstanding loan balances, exemptions,
        or tax implications (seven instances).
    •   Overlooked information on supporting documentation and/or did not obtain supporting
        documentation to determine the value of investments (401(k) accounts) (four instances).
    •   Made inadvertent errors when recording information on proforma worksheets used to
        calculate the RCP (four instances).




3
 For example, the offer specialist estimated monthly income from the current year information but based tax on a
prior year.
                                                                                                          Page 31
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups

                                                        Appendix VIII


     Management’s Response to the Draft Report




                                                              Page 32
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups




                                                            Page 33
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups




                                                            Page 34
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups




                                                            Page 35
Improvements Are Needed in the Timeliness and Accuracy of
  Offers in Compromise Processed by Field Offer Groups




                                                            Page 36
